BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Antonio Maldonado Paredes as Amicus Curiae in
Support of Petitioners in 21-33, Maxima
Acufia-Atalaya, Daniel Chaupe-Acufia, Jilda
Chaupe-Acufia, Carlos Chaupe-Acufia, Ysidora
Chaupe-Acuna, Elias Chavez-Rodriguez, Maribel
Hil-Briones v. Newmont Mining Corporation, Newmont
Second Capital Corporation, Newmont USA Limited,
and Newmont Peru Limited, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 3rd day of September, 2021:
Richard L. Herz
EarthRights International
1612 K Street N.W.
Suite 800
Washington, DC 20006
(860) 233-4938
rick@earthrights.org

Counsel for Petitioners
Melissa Arbus Sherry
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3386
melissa. sherry@lw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

; 8790 Governor's Hill Drive
, Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

' Cincinnati, Ohio 45249

Washington, DC 20005

Franklin Square

Michael D. Hausfeld
Counsel of Record
Scott A. Gilmore
Amanda E. Lee-DasGupta
Ian Engdahl
Hausfeld LLP
888 16th Street NW
Suite 300
Washington, DC 20006
(202) 540-7200
mhausfeld@hausfeld.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 3, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r f'bruary 14, 2023

